           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    EMPLOYERS WITH THE MOST
   WAGE ITEMS IN THE NONWORK
           ALIEN FILE

    June 2006   A-08-05-15138




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   June 19, 2006                                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Employers with the Most Wage Items in the Nonwork Alien File (A-08-05-15138)



        OBJECTIVE

        Our objectives were to (1) profile the 100 employers with the most wage items 1 in the
        Nonwork Alien (NWALIEN) file for Tax Years (TY) 2001 through 2003 and (2) assess
        the extent to which noncitizens who had work authorization may have worked under
        nonwork Social Security numbers (SSN) in TY 2003.

        BACKGROUND

        The Social Security Administration (SSA) assigns nonwork SSNs to noncitizens who do
        not have work authorization from the Department of Homeland Security (DHS) but who
        have valid reasons for the SSNs. Specifically, SSA assigns nonwork SSNs to
        noncitizens who are in the United States but are not authorized to work and
        (1) a Federal statute or regulation requires that the noncitizen provide his/her SSN to
        get a particular benefit or service to which he or she has otherwise established
        entitlement or (2) a State or local law requires that the noncitizen who is legally in the
        United States provide his/her SSN to get public assistance benefits to which he or she
        has otherwise established entitlement and for which all other requirements have been
        met.

        Although SSA annotates nonwork Social Security cards with a legend stating that these
        SSNs are not valid for employment purposes, some noncitizens improperly use these
        SSNs to work in the U.S. economy. When they do so, and their employers report their
        wages to SSA, the Agency posts these wages to the individuals’ earnings records,
        which later may be relied on in determining whether the individuals qualify for Social
        Security benefits.



        1
         A wage item is an individual employee report prepared by employers on a Wage and Tax Statement
        (Form W-2) after the close of the calendar year that shows wages paid and taxes withheld during the
        prior calendar year.
Page 2 - The Commissioner


In March 2004, Congress placed new restrictions on the receipt of SSA benefits by
noncitizens who are not authorized to work in the United States. Under the Social
Security Protection Act of 2004, 2 if a noncitizen worker was first assigned an SSN on or
after January 1, 2004, Title II benefits are precluded based on his/her earnings unless
the noncitizen was ever

•     assigned an SSN for work purposes or

•     admitted to the United States as a visitor for business (B-1 visa) or as an allied
      crewman (D-1/D-2 visa).

As mandated by the Illegal Immigration Reform and Immigrant Responsibility Act of
1996, 3 each year, SSA sends DHS an electronic data file, called the NWALIEN file, that
contains information on noncitizens who have earnings recorded under nonwork SSNs. 4
The law requires that the file include the names and addresses of the nonwork
numberholder and the employer reporting the earnings, as well as the amount of the
earnings. While SSA notifies DHS of potentially unauthorized employment, DHS does
not routinely inform SSA when it changes a person’s work authorization status. In
addition, noncitizens do not always report changes in their work authorization status to
SSA. 5 Unless noncitizens inform SSA directly of their status changes, SSA’s
enumeration records will continue to show them as “not authorized for employment” and
record their earnings on the NWALIEN file. SSA does not inform the employee or
employer that a nonwork SSN was used for the reported wages.

To accomplish our objectives, we obtained NWALIEN data for TYs 2001 through
2003. We then identified the 100 employers who contributed the most wage items to
the NWALIEN file for the 3-year period. 6




2
    Pub. L. No. 108-203, § 211, 118 Stat. 493 (2004).
3
    Pub. L. No. 104-208, § 414, 110 Stat. 3009 (1996).
4
  The law requires that this report be submitted to the Attorney General. On March 1, 2003, the
responsibility for providing immigration-related services and benefits was transferred to DHS. As such,
the file is now submitted annually to DHS.
5
 Before 2002, SSA did not explicitly request that noncitizens report their change in status so the Agency
could issue them a work-authorized Social Security card.
6
  While we recognize that some employers may report wages under more than one employer
identification number, we did not combine NWALIEN file wage items posted under multiple employer
identification numbers to determine the 100 employers.
Page 3 - The Commissioner


For the 100 employers selected, we analyzed NWALIEN data to identify characteristics
of these employers and their employees. We also randomly selected a sample of
275 noncitizens who had earnings from any of the 100 employers with the most wage
postings in the 2003 NWALIEN file. 7 For each of the sampled cases, we verified
noncitizens’ work authorization status for TY 2003 with DHS. 8 Because of DHS’
responsibility for immigration enforcement, we will provide a copy of this report to its
Inspector General. Appendix B includes a detailed description of our scope and
methodology.

RESULTS OF REVIEW
For TYs 2001 through 2003, 109,064 noncitizens worked under nonwork SSNs for the
100 employers in our review. These employers submitted 210,389 wage items totaling
about $6.4 billion over the 3-year period. The employers with the most nonwork wage
postings were government, retail, and universities. 9 The largest number of noncitizens
with earnings under a nonwork SSN were born in Mexico, India, and the Philippines.

Based on our review of a sample of 275 noncitizens who worked under nonwork SSNs
in TY 2003, it appears 101 (37 percent) had work authorization, according to data
provided by DHS. However, SSA’s records had not been updated to reflect a change in
these individuals’ work status. The employers with the highest percentages of
noncitizens who had work authorization, but were misclassified in SSA’s records and
the NWALIEN file, were technology, government and retail. Additionally, based on data
provided by DHS, it appears 169 (61 percent) of the noncitizens reviewed were correctly
classified and did not have work authorization. The employers with the highest
percentages of noncitizens who worked without authorization in 2003 were staffing,
healthcare, hotels and service. DHS could not locate immigration records for our five
remaining sample cases (2 percent).

Unauthorized work by noncitizens weakens SSN integrity and may require that the
Agency pay benefits to these individuals. In addition, noncitizens who work without
DHS authorization could affect homeland security because they may obtain
employment in sensitive areas. To help ensure the integrity of SSA’s records and the
accuracy of the NWALIEN file, we believe the Agency should consider informing
numberholders it has recorded their wages under a nonwork SSN. In addition, to
reduce the number of noncitizens who work without authorization, we believe SSA
should consider examining its interpretation of existing disclosure laws and, if
necessary, seek legislative authority that would allow the Agency to disclose nonwork

7
  We selected the sample from 17,125 noncitizens who had earnings from any of the 100 employers with
the most wage postings in the 2003 NWALIEN file and who were assigned an SSN on or after
January 1, 1995. We chose this date to increase the probability that we could obtain work status
information.
8
 We were unable to determine the reliability of the information systems at DHS. Accordingly, any
conclusions made in this report are qualified by the statement “based on data provided by DHS.”
9
    We subjectively categorized each employer into industry groups based on its primary product or service.
Page 4 - The Commissioner


status to employers. We also believe the Agency should encourage employers who file
large numbers or percentages of wage statements with nonwork SSNs to use the Basic
Pilot when hiring new employees. 10 For example, we believe the Agency should
consider coordinating with employer associations and participating in conferences to
discuss steps employers can take to reduce unauthorized work by noncitizens.

NONCITIZENS WORKING UNDER NONWORK SSNs IS WIDESPREAD

We found that 109,064 noncitizens worked under nonwork SSNs in TYs 2001 through
2003 for the 100 employers we reviewed. Over the 3-year period, these employers
submitted 210,389 wage items totaling about $6.4 billion. As shown in Table 1, the
employers with the most wage items in the NWALIEN file were government, retail,
universities, technology and staffing. These employers accounted for more than
3 quarters of nonwork wage items for the 100 employers we reviewed. The average
wage item ranged from over $7,700 in the staffing industry to almost $102,000 in the
technology industry. Technology and government accounted for over $4 billion
(64 percent) of the wages posted to nonwork SSNs by the 100 employers for the 3-year
period.

          Table 1: Employers with the Most Wage Items in the NWALIEN File
                                 (TYs 2001 - 2003)

                                NUMBER OF       NUMBER OF                                AVERAGE
     EMPLOYER                   WAGE ITEMS      EMPLOYERS       DOLLAR AMOUNT            WAGE ITEM
     GOVERNMENT*                      49,380        17            $1,512,266,332.13         $30,625
     RETAIL                           40,460        16               465,984,940.79           11,517
     UNIVERSITIES                     25,442        15               639,357,583.45           25,130
     TECHNOLOGY                       25,155        13             2,561,256,282.22         101,819
     STAFFING                         24,561        13               189,605,627.03            7,720
     FOOD                             14,875         8               127,027,653.37            8,540
     HEALTHCARE                        6,998         5               134,875,872.49           19,273
     HOTEL                             5,479         2                98,121,477.87           17,909
     FINANCIAL                         5,055         3               227,611,519.07           45,027
     SERVICE                           5,037         3                58,609,007.57           11,636
     MANUFACTURING                     4,312         4               306,873,305.03           71,167
     TRANSPORTATION                    3,635         1                70,618,334.93           19,427
     TOTALS                         210,389        100            $6,392,207,935.95         $30,383
*Of the 17 employers in government, 7 were Federal agencies, 7 were State agencies and
 3 were local government entities.

Additionally, 55,282 (51 percent) of the 109,064 noncitzens were born in 10 foreign
countries: Mexico, India, the Philippines, China, Taiwan, Iran, Brazil, Nigeria,
South Korea and the United Kingdom. As shown in Table 2, the largest numbers of
noncitizens with earnings under a nonwork SSN were born in Mexico, India, and the


10
  The Basic Pilot is an SSA and DHS voluntary program that helps employers determine whether a
newly hired individual is eligible to work in the United States.
Page 5 - The Commissioner


Philippines. These countries accounted for about 1 of every 4 noncitizens who had
earnings under nonwork SSNs for the 100 employers we reviewed.

                          Table 2: Top 10 Countries of Birth
                  for Noncitizens with Earnings Under Nonwork SSNs
                                   (TYs 2001 - 2003)

 14000
         12381
 12000
 10000
                  7420       7196
  8000                                  6611
                                                   5545
  6000                                                          4805
                                                                        3396     2926
  4000                                                                                     2526    2476
  2000
     0
         Mexico   India   Philippines   China     Taiwan         Iran   Brazil   Nigeria   South   United
                                                                                           Korea   Kingdom

                                                Countries of Birth




SOME INDIVIDUALS IN THE NWALIEN FILE HAVE WORK AUTHORIZATION

Based on data provided by DHS, of the 275 noncitizens in our review who worked under
a nonwork SSN in TY 2003, it appears 101 (37 percent) had work authorization from
DHS. However, SSA’s records had not been updated to reflect a change in these
individuals’ work status. The average wage item for these individuals was $25,206. As
shown in Table 3, the employers with the highest percentages of individuals who had
work authorization, but were misclassified in SSA’s records and the NWALIEN file, were
technology, government and retail. The percentages of individuals who had work
authorization ranged from 16 percent in the staffing industry to 68 percent in the
technology industry. The 101 individuals who had work authorization included
63 lawfully admitted permanent U.S. residents and 5 U.S. citizens. In fact, 19 of these
68 individuals were work-authorized in 1999 or earlier.

Based on data provided by DHS, it appears 169 (61 percent) of the noncitizens in our
review were correctly classified and did not have work authorization. The average
wage item for these individuals was $13,173. The employers with the highest
percentages of noncitizens who did not have work authorization were healthcare,
staffing, hotel, and service, as shown in Table 3. The percentages of noncitizens who
did not have work authorization ranged from 32 percent in technology to 82 percent in
healthcare. Of the 169 noncitizens who did not have work authorization,
101 (60 percent) worked for the same employer for 2 or more years. In fact,
64 (38 percent) worked for the same employer for 3 or more years and 19 (11 percent)
worked for 5 or more years.

DHS could not locate immigration records for the remaining five (2 percent) noncitizens
in our sample. Therefore, we could not determine the work status for these individuals.
Page 6 - The Commissioner


                     Table 3: Work Authorization by Employer (TY 2003)

     Number of Individuals Working                               Not Work              Work Status
             by Employer                 Work Authorized        Authorized              Unknown
     Number    Employer                 Percent    Number   Percent    Number     Percent    Number
        28     Technology                  68         19       32          9           0        0
        36     Government                  53         19       44         16           3        1
        63     Retail                      43         27       57         36           0        0
         6     Other Employers*            33          2       67          4           0        0
        37     Universities                32         12       68         25           0        0
         7     Hotel                       29          2       71          5           0        0
         7     Service                     29          2       71          5           0        0
        29     Food                        28          8       66         19           7        2
        17     Healthcare                  18          3       82         14           0        0
        45     Staffing                    16          7       80         36           4        2
       275     Totals                                101                 169                    5
Note: Not all percentages total 100 due to rounding.

*The “Other Employers” category includes two employers in the financial industry and
 four in the transportation industry.

OPPORTUNITY TO REDUCE SSA’s RISK FROM NONCITIZENS WHO WORK
WITHOUT AUTHORIZATION

To its credit, SSA recognizes the impact unauthorized work has on its programs and
has taken steps to reduce such activity. For example, as required by law, 11 SSA and
DHS developed the Basic Pilot to assist participating employers in verifying employment
eligibility for newly hired employees. In addition, each year, the Agency sends DHS the
NWALIEN file, which contains information on noncitizens who have earnings recorded
under nonwork SSNs. We believe such initiatives enhance SSN integrity.

However, noncitizens who work without DHS authorization may be able to obtain Title II
benefits based on earnings recorded under a nonwork SSN. In addition, noncitizens
who work without authorization could affect homeland security because they may obtain
employment in sensitive areas.

SSA has additional opportunities to enhance SSN integrity and improve the accuracy of
Agency records. We believe SSA should consider informing numberholders (1) the
Agency has recorded their earnings under an SSN assigned for nonwork purposes,
(2) DHS has been notified of the unauthorized work, and (3) they should visit an SSA
field office and provide proof of DHS work authorization status if their status has
changed since the nonwork SSN was assigned. For example, the Agency could




11
     Pub. L. No. 104-208 § 404, 110 Stat. 3009 (1996).
Page 7 - The Commissioner


enhance its annual Social Security Statements 12 to include information regarding
earnings posted under a nonwork SSN. We believe informing numberholders of such
information will encourage noncitizens who have obtained work authorization to notify
SSA of this change. Improving the accuracy of SSA’s records will also help improve the
accuracy of the NWALIEN file.

We also encourage SSA to further examine its interpretation of existing disclosure laws
and, if necessary, seek legislative authority that would allow the Agency to disclose
nonwork status to employers. Employers can use the information to inform employees
that they are working under a nonwork SSN and encourage them to contact SSA to
update their records. Also, employers would become aware that some of their
employees may not have work authorization and that SSA shares this information with
DHS annually. 13 SSA representatives from the Office of Disclosure Policy indicated that
the Privacy Act prohibits the Agency from notifying employers when an employee works
under a nonwork SSN. We recognize the Agency has not been tasked with the mission
of immigration and workplace enforcement. However, SSA is responsible for assigning
SSNs, recording earnings, and, ultimately, paying benefits to eligible individuals.
Accordingly, we believe maintaining the integrity of its SSN records should be of
paramount concern to the Agency as it accomplishes its legislatively mandated mission.

We also believe the Agency should encourage employers who file large numbers or
percentages of wage statements with nonwork SSNs to use the Basic Pilot when hiring
new employees. For example, we believe the Agency should consider coordinating with
employer associations and participating in conferences to discuss steps employers can
take to reduce unauthorized work by noncitizens. Through such outreach efforts, the
Agency can educate employers about the Basic Pilot and its ability to determine
whether newly hired employees are authorized by DHS to work in the United States.
We believe greater use of this service will help reduce the number of noncitizens who
work without authorization.




12
  These statements provide numberholders a year-by-year earnings history, their Social Security taxes
paid, and estimates of retirement, disability and survivor benefits.
13
  We believe notices to employers should state that an employee working under a nonwork SSN may
have work authorization and the notice is not a basis, in and of itself, for an employer to take any adverse
action against an employee.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Based on the results of this audit, we determined some noncitizens who worked under
nonwork SSNs were authorized to work but failed to inform SSA of their changes in
work status. However, other noncitizens worked without DHS authorization. In
previous reports, we recommended that SSA work with DHS to resolve data
compatibility problems associated with nonwork earnings and establish data fields to
allow the agencies to effectively match records. The report titles are listed in
Appendix C. We continue to support the recommendations made in these reports and
encourage SSA to continue its collaboration with DHS to maximize use of the NWALIEN
file. Given the importance of ensuring the integrity of SSA’s records and improving the
accuracy of the NWALIEN file, we believe SSA should take additional measures to
address unauthorized work by noncitizens.

Accordingly, we recommend that SSA consider:

1.   Informing numberholders (1) the Agency has recorded their earnings under an
     SSN assigned for nonwork purposes, (2) DHS has been notified of the
     unauthorized work, and (3) they should visit an SSA field office and provide proof
     of DHS work authorization status if their status has changed since the nonwork
     SSN was assigned.

2.   Examining its interpretation of existing disclosure laws and, if necessary, seek
     legislative authority that would allow the Agency to disclose nonwork status to
     employers.

3.   Encouraging employers who file large numbers or percentages of wage
     statements with nonwork SSNs to use the Basic Pilot when hiring new employees.
     For example, we believe the Agency should consider coordinating with employer
     associations and participating in conferences to discuss steps employers can take
     to reduce unauthorized work by noncitizens.

AGENCY COMMENTS

SSA disagreed with our recommendations. In response to Recommendation 1, SSA
stated that our proposed actions would have a minimal effect on SSA program
administration while creating a substantial workload, both in systems development and
in SSA field offices. SSA stated the Social Security Statement is a carefully crafted
document that was developed as a public education and financial planning tool to be
used by all workers in this country. SSA believes it would not be prudent to (1) devote
resources to a separate mailing of the Statement or (2) develop and send a new letter to
individuals who have earnings and whose original Social Security card was issued with
the nonwork legend. In addition, SSA stated it informs all numberholders how to notify
the Agency of any changes to their record through the instructions attached to the SSN
card.
Page 9 - The Commissioner


In response to Recommendation 2, SSA stated the Privacy Act prevents it from
disclosing nonwork status to employers. SSA stated that, even if it had legislative
authority for this purpose, the information would be of questionable value because
SSA’s records often do not reflect the current work status of employees. Furthermore,
SSA stated disclosing incorrect nonwork status information to an employer could have a
negative impact on the Agency because it could lead to improper terminations of
employees authorized to work, which could lead to adverse publicity for SSA. SSA also
stated that disclosures of incorrect information could lead to numerous additional visits
to field offices, distracting the Agency from its core mission of administering the Social
Security program.

Although SSA disagreed with Recommendation 3, it stated it supports in principle the
effort to provide employers information about the Basic Pilot program and encourage its
use. SSA stated that DHS is this program’s sponsor and, accordingly, should have the
primary role in promoting its use and identifying ways employers can reduce
unauthorized work by noncitizens. See Appendix D for the full text of SSA’s comments.

OIG RESPONSE
We acknowledge the steps SSA has taken to address unauthorized work by
noncitizens. However, we believe SSA has both the responsibility and the ability to do
more to reduce unauthorized work by noncitizens.

Regarding SSA’s response to Recommendation 1, we continue to believe it is important
that SSA inform numberholders it has recorded their earnings under an SSN assigned
for nonwork purposes. We acknowledge that noncitizens who do not have work
authorization are unlikely to respond to SSA. However, we believe a significant number
of noncitizens who are work-authorized (about 37 percent of our sample) will inform
SSA of their change in work status because it is in their interest to do so. We agree that
SSA informs numberholders to report changes to their records during the enumeration
process. However, some noncitizens have worked for years under a nonwork SSN and
therefore may need to be reminded of their responsibility to report changes in their work
status. Given the importance of maintaining the integrity of SSA records and improving
the accuracy of the NWALIEN file, we encourage SSA to commit the necessary
resources to implement our recommendation.

Regarding SSA‘s response to Recommendation 2, we acknowledge that SSA’s
interpretation of the Privacy Act prevents disclosure of nonwork status to employers.
However, we do not agree that disclosure of such information would be of questionable
value. As discussed in this report, employers can use the information to inform
employees that they are working under a nonwork SSN and encourage them to contact
SSA to update their records. Also, employers would become aware that some of their
employees may not have work authorization and that SSA shares this information with
DHS annually. In addition, employers who place workers in sensitive positions need to
know this information because it could affect homeland security. In response to SSA’s
concern that disclosing incorrect nonwork status could lead to improper terminations of
Page 10 - The Commissioner


employees authorized to work, as discussed in this report, we believe notices sent to
employers should state that an employee working under a nonwork SSN may have
work authorization and the notice is not a basis, in and of itself, for an employer to take
any adverse action against an employee. Regarding SSA’s concern that disclosures of
incorrect information could lead to numerous additional visits to field offices, distracting
the Agency from its core mission of administering the Social Security program, we
believe that correcting numberholders’ records is an important part of the Agency’s core
mission. Until SSA discloses nonwork status to employers, and they are held
accountable for the workers they hire, we do not believe the number of noncitizens who
work without authorization will decline. Accordingly, we ask the Agency to reconsider its
response to this recommendation.

Regarding SSA’s response to Recommendation 3, we agree that DHS is the Basic
Pilot’s sponsor and should have the primary role in promoting its use and identifying
ways employers can reduce unauthorized work. We did not intend to suggest that SSA
should be the lead Agency regarding employers’ use of the Basic Pilot. Rather, our
intent was to urge the Agency to encourage employers who file large numbers or
percentages of wage statements with nonwork SSNs to use the Basic Pilot when hiring
new employees. We believe SSA should be proactive in promoting the Basic Pilot,
given presidential and congressional interest in expanding this program. Accordingly,
we ask the Agency to reconsider its response to this recommendation.

OTHER MATTER

Identification of Noncitizens of Interest to Law Enforcement

During our analysis of DHS data, we identified two noncitizens who had warrants of
removal issued against them. DHS personnel advised us that such noncitizens should
be identified and removed from the country. Our Office of Investigations forwarded
information on these noncitizens to DHS.

Our identification of these individuals demonstrates the usefulness of the NWALIEN file
as a tool to locate individuals of concern to law enforcement. DHS can use the file to
obtain address and employer data on noncitizens with warrants issued against them.




                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Prior Audit Reports
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                Appendix A

Acronyms
DHS           Department of Homeland Security
NWALIEN       Nonwork Alien
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSN           Social Security Number
TY            Tax Year
                                                                      Appendix B

Scope and Methodology
To accomplish our objectives, we performed the following steps.

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as other relevant Federal laws and regulations.

•   Reviewed prior SSA Office of the Inspector General reports. See Appendix C for a
    list of the reports.

•   Obtained Nonwork Alien (NWALIEN) file data for Tax Years (TY) 2001 through
    2003 and identified the 100 employers who contributed the most wage items to the
    NWALIEN file for the 3-year period. For the 100 employers selected, we analyzed
    NWALIEN data to identify characteristics of these employers and their employees.

•   Randomly selected a sample of 275 noncitizens with earnings from any of the
    100 employers with the most wage postings in the 2003 NWALIEN file and verified
    each noncitizens’ work authorization status for TY 2003 with the Department of
    Homeland Security (DHS). We selected the sample from 17,125 noncitizens who
    had earnings from any of the 100 employers with the most wage postings in the
    2003 NWALIEN file and who were assigned an SSN on or after January 1, 1995.
    We chose this date to increase the probability that we could obtain work status
    information.

•   Reviewed and analyzed SSA’s Numident and Master Earnings File for the
    275 noncitizens to determine (1) when the noncitizens were enumerated, (2) their
    work history, and (3) where they were born.

The entity audited was SSA’s Office of Earnings, Enumeration and Administrative
Systems under the Deputy Commissioner for Systems. During our review, we
determined that Numident and Master Earnings File data were sufficiently reliable to
satisfy our audit objectives. We limited our review of internal controls to the steps
identified above. However, we could not determine the reliability of DHS data provided
for our audit and included in the NWALIEN file. As a result, any conclusions made in
this report are qualified by the statement “based on data provided by DHS.” We
conducted our audit from February 2005 through January 2006 in accordance with
generally accepted government auditing standards.
                                                                   Appendix C

Prior Audit Reports

         Social Security Administration, Office of the Inspector General
                   Reports Related to the Nonwork Alien File
  Common
Identification                                                         Date
   Number                           Report Title                      Issued
                 Work Activity for Social Security Numbers
A-14-01-11048    Assigned for Nonwork Purposes in the State of      March 2002
                 Utah
                 Congressional Response Report: Social
A-03-03-23053    Security Administration Benefits Related to        March 2003
                 Unauthorized Work
                 Profile of the Social Security Administration’s
A-14-03-23071                                                      September 2003
                 Non-Work Alien File
                 Unauthorized Work Social Security Numbers at
A-03-05-25127                                                      September 2005
                 the Department of Defense
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      June 5, 2006                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Employers with the Most Wage Items in
           the Nonwork Alien File" (A-08-05-15138)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG)
DRAFT REPORT, “EMPLOYERS WITH THE MOST WAGE ITEMS IN THE
NONWORK ALIEN FILE” (A-08-05-15138)

Thank you for the opportunity to review and provide comments on this draft report. The
Agency is committed to ensuring the integrity of the Social Security number (SSN), and
we continue to explore ways to improve all processes related to the SSN. We will
continue our outreach efforts with employers and similarly consider ways to more
effectively communicate to numberholders the need to update their Social Security
Administration (SSA) records as soon as their work authorization status has changed.

Recommendation 1

SSA should consider informing numberholders that: 1) the Agency has recorded their
earnings under an SSN assigned for nonwork purposes; 2) the Department of Homeland
Security (DHS) has been notified of the unauthorized work; and 3) they should visit an
SSA field office and provide proof of DHS work authorization status if their status has
changed since the nonwork SSN was assigned.

Comment

We disagree. We believe that the proposed actions would have a minimal effect on SSA
program administration while creating a substantial workload, both in systems
development and in SSA’s field offices.

In the body of the report, the OIG suggested that SSA use the Social Security Statement
as a vehicle to notify individuals assigned a “nonwork” number when SSA has recorded
earnings under their number and that DHS will be notified. However, the 4-page Social
Security Statement is a carefully crafted document that was developed as a public
education and financial planning tool to be used by all workers in this country. We do
not believe it would be prudent to devote resources to a separate mailing of the Statement
tailored specifically to those individuals who have earnings and whose original Social
Security card was a “nonwork” card, as such individuals represent less than one-half of
one percent of the 144 million annual Statements mailed in 2005. Nor do we believe it is
prudent to develop and send a new letter to the more than 500,000 individuals who have
earnings and whose original Social Security Card was issued with the “nonwork” legend.
Moreover, as OIG has noted in its report, many such individuals are, in fact, authorized
to work.

In addition, SSA currently informs all number holders how to notify SSA of any changes
to their record through the instructions attached to the SSN card (reverse side of the Form
SSA-3000). Those instructions state, “You should contact us to update your Social
Security number records if your name, your U.S. citizenship status, or your status as an
alien in the U.S. changes. You will need to file an application for corrected Social
Security card and provide proof of your identity, and we may request certain other



                                           D-2
evidence supporting the change.” The instructions further state, “If you are an alien
without permission to work in the U.S., your Social Security card will be marked ‘NOT
VALID FOR EMPLOYMENT.’ We will notify U.S. immigration officials if you use the
number to work.”

Recommendation 2

SSA should consider examining its interpretation of existing disclosure laws and, if
necessary, seek legislative authority that would allow the Agency to disclose nonwork
status to employers.

Comment

We disagree. This draft report refers to SSA’s Office of Public Disclosure’s comments
(page 7, footnote 13) on a different audit (September 2005 OIG Report, Unauthorized
Work Social Security Numbers at the Department of Defense – A-03-05-25127)
concerning “nonwork” SSNs being used by the Department of Defense. In that audit, as
with this audit, SSA did not cite Section 6103 of the Internal Revenue Code as a basis for
withholding “nonwork” status from employers. Section 6103 of the Internal Revenue
Code is the statutory provision that prevents disclosure of tax information, including
earnings information collected by SSA from employers as part of the wage reporting
process. That provision, however, does not apply to records pertaining to work status.
Work status records are included in the application for an SSN, and are thus included in
the Privacy Act system of records Master Files of SSN Holders and SSN Applications,
60-0058, commonly referred to as the Numident.

As discussed in detail below, the Privacy Act prevents the disclosure of such information.
Under the Privacy Act routine use provision (5 U.S.C. § 552a(b)(3)), SSA may disclose
information for a purpose compatible with the purpose for which we collect and maintain
information. Section 401.150 of SSA disclosure regulations that implement the Privacy
Act (20 C.F.R. Part 401) provides that we may disclose information where necessary to
carry out SSA’s programs. SSA collects enumeration information in order to assign
SSNs, which in turn allows SSA to record wage credits to the appropriate earnings file.
Thus, we verify SSNs for employers solely to ensure the records of the current or former
employees (or for individuals whom an employer has made a commitment to hire) are
correct for the purpose of completing Internal Revenue Service Forms W-2 (Wage and
Tax Statement). The SSN verifications allow SSA to properly credit employees’
earnings records, which will be important information in determining their Social
Security benefits in the future.

In order for SSA to be able to disclose “nonwork” status to employers for whom the
Agency verifies SSNs, we must be able to establish that the disclosure of that specific
information meets the compatibility standard in both the Privacy Act (5 U.S.C. §
522a(a)(7)) and SSA’s disclosure regulations noted above. We collect this information
as part of the enumeration process only in order to issue SSNs and to ensure proper wage



                                           D-3
reporting needed to accomplish our core mission. Maintaining the integrity of the SSN
record is of paramount concern for SSA. DHS has purview over the authorization,
collection and maintenance of information related to work eligibility. Thus, current work
authorization status can be verified only by DHS. Because SSA does not have the
authority to investigate, verify, or enforce work authorization status, we cannot establish
the requisite compatibility needed to disclose “nonwork” status to employers.

Even if SSA has legislative authority for this purpose, with such authority, however, the
information would be of questionable value, because SSA’s records often do not reflect
the current status of this information. SSA only collects this information at enumeration
and often does not receive notification of changes in status from the individual until they
apply for benefits. Thus, the information would only be of limited value. In addition,
disclosing incorrect “nonwork” status information to an employer could have a negative
impact on the Agency. For example, confusion over incorrect work status information
could lead to improper terminations of employees authorized to work. SSA could then be
viewed by the public as having been responsible for the improper termination. Such
incidents could in turn lead to adverse publicity for SSA. Disclosures of incorrect
information could also lead to numerous additional visits to field offices, distracting the
Agency from its core mission of administering the Social Security program. As noted
above, verifying current work status information is one of the missions of DHS.
Therefore, SSA should not seek legislative authority for this matter.

Recommendation 3

SSA should consider encouraging employers who file large numbers or percentages of
wage statements with nonwork SSNs to use the Basic Pilot when hiring new employees.
For example, we believe the Agency should consider coordinating with employer
associations and participating in conferences to discuss steps employers can take to
reduce unauthorized work by noncitizens.

Comment

We disagree. We support in principle the effort to provide employers information about
the Basic Pilot program and encourage its use. However, DHS is this program’s sponsor
and, accordingly, should have the primary role in promoting its use and identifying to
employers ways in which they can reduce unauthorized work by noncitizens. Although
SSA should not have the lead in implementing this recommendation, we can support
DHS in its efforts and assist them in identifying effective outreach steps in which SSA
can play a secondary role in providing information to employers about the Basic Pilot.




                                           D-4
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1605

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Kenley Coward, Program Analyst

   Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-05-15138.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
